Highlights
Table of Contents




                    Voyager Card
                    Program –
                    Capping Report
Findings
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    NO-MA-14-007

                    September 30, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                              Background
                                                                                                                                 The Postal Service
                                                            Since 2005, the U.S. Postal Service has been providing               pays for all the                          Hover over
                                                            Highway Contract Route (HCR) contractors with Voyager fleet          purchased fuel                            the Voyager
                                                            transaction cards to purchase fuel for HCRs. The Postal Service      under the HCR                             card to see
                                                            has spent $5.1 billion on fuel purchases of 1.6 billion gallons      Voyager Program            what the industry practices
                                                                                                                                 for its contractors’       and risks are.
Findings




                                                            for the HCR Voyager Card Program, since its start in fiscal year
                                                            (FY) 2005 through FY 2013. It is a complex program, consisting       use so there is
                            The HCR Voyager Card            of over 400 contractors and more than 4,000 contracts using          no incentive for
                                                            over 12,000 active Voyager cards.                                    contractors to
                       Program implemented by the                                                                                conserve fuel.
                        Postal Service in 2005 is not       Our objective was to assess the HCR Voyager Card Program             FUEL                          FUEL

                                                            (summarizing our prior work in this area) and identify viable fuel
                         effective and other options        management program alternatives.
Recommendations




                             should be considered.
                                                            What the OIG Found
                                                            The HCR Voyager Card Program implemented by the
                                                            Postal Service is not effective and other options should                         FUEL                            FUEL

                                                            be considered.

                                                            Specifically, our prior work found the Postal Service did not
                                                            establish adequate controls over the program and safeguard
                                                            the cards against fraud, waste and abuse; establish an
                                                            infrastructure to manage the program including systems
Appendices




                                                            and resources to monitor activities; or take advantage of
                                                            technological best practices to increase miles per gallon
                                                            achieved.


                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                    Print                                 1
Highlights
Table of Contents




                                                            We also identified inherent program weaknesses including             inception, then automatically adjusting the price periodically.
                                                            a lack of incentives for contractors to obtain the cheapest          Unlike the HCR Voyager Card Program, this option requires
                                                            fuel, maximize their miles per gallon efficiency, and ensure         less administrative oversight, provides increased control over
                                                            fuel purchases are for postal purposes only. Since 2011, we          contract payments (reducing the risk of fuel overpayments),
                     We estimate the Postal Service         have reported on a pattern of diminished program controls            incentivizes contractors to reduce their carbon footprint, and
                                                            and management recognized they were unable to enforce                improves mileage per gallon efficiency.
                      has incurred and will continue        pooling policies. Our initial investigative work from FY 2006 to
                                                            FY 2013 identified 63 cases of significant program fraud by both     Management has taken recent actions. In FY 2014, the
Findings




                         to incur about $10.7 million
                                                            companies and individuals. Our investigation continues, but it       Postal Service initiated a comprehensive study of its HCR
                        annually when compared to           has become increasingly difficult because of the weak controls,      contracting model to identify innovative cost saving strategies,
                                                            processes, and practices associated with the HCR Voyager             which included integrating fuel types, contract types, business
                     the fuel price-indexing program        Card Program.                                                        models, and technology platforms. This study is still ongoing
                                                                                                                                 and no decisions or results of this study have been announced.
                             incorporating industry
                                                            Furthermore, the Postal Service has incurred more in program         In addition, the Postal Service has conducted an internal review
                                   best practices.          costs than what it expected to save. This is contrary to the         of its pooling policy and determined overages could not be
Recommendations




                                                            Postal Service’s claim that the program saves $50 million a year     collected because of their own non-compliance with the policy.
                                                            ($17 million from unused gallons and $33 million from discounts      Finally, the Postal Service took corrective action on employee
                                                            and rebates). Based on our prior work, beginning in FY 2011,         misconduct, identified by the OIG that was associated with the
                                                            we questioned about $489 million in expenditures associated          administration and oversight of HCR contracts and the HCR
                                                            with this program due to significant control weaknesses.             Voyager Card Program.
                                                            Moreover, we estimate that the Postal Service has incurred and
                                                            will continue to incur about $10.7 million annually in additional    What the OIG Recommended
                                                            costs because of these control weaknesses.
                                                                                                                                 We recommended management consider fuel management
                                                                                                                                 program options other than the HCR Voyager Card Program.
                                                            The HCR Voyager Card Program is not manageable given the
                                                                                                                                 We also recommended that management consider fuel
                                                            level of risk and the significant resources required for providing
Appendices




                                                                                                                                 management best practices as appropriate to obtain the best
                                                            enhancements and critical oversight. Based on industry
                                                                                                                                 value for the Postal Service.
                                                            best practices, one viable alternative is a variation of a fuel
                                                            price-indexing model. Indexing includes setting reasonable
                                                            miles per gallon and a base price per gallon at contract

                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                         Print                                     2
Highlights
                    Transmittal Letter



                                                            September 30, 2014	
Table of Contents




                                                            MEMORANDUM FOR:	          SUSAN M. BROWNELL
                                                            				                      VICE PRESIDENT, SUPPLY MANAGEMENT

                                                            				DAVID E. WILLIAMS, JR.
                                                            				VICE PRESIDENT, NETWORK OPERATIONS

                                                                                           E-Signed by Robert Batta
                                                                                         VERIFY authenticity with e-Sign



                                                            				
                                                            FROM: 			 Robert J. Batta
Findings




                                                            				      Deputy Assistant Inspector General
                                                            				       for Mission Operations

                                                            SUBJECT: 			 Management Advisory Report – Voyager Card Program –
                                                            				Capping Report
                                                            				(Report Number NO-MA-14-007)

                                                            This management advisory report presents the results of our review of the
Recommendations




                                                            U.S. Postal Service’s Voyager Card Program – Capping Report
                                                            (Project Number 14XG024NO000). The postmaster general requested this review.

                                                            We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                            questions or need additional information, please contact James L. Ballard, director,
                                                            Network Processing and Transportation, or me at 703-248-2100.

                                                            Attachment

                                                            cc: Corporate Audit and Response Management
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                 Print             3
Highlights
                    Table of Contents

                                                            Cover
                                                            Highlights.......................................................................................................1
                                                             Background.................................................................................................1
                                                             What the OIG Found...................................................................................1
Table of Contents




                                                             What the OIG Recommended.....................................................................2
                                                            Transmittal Letter...........................................................................................3
                                                            Findings.........................................................................................................5
                                                             Introduction.................................................................................................5
                                                             Conclusion..................................................................................................5
                                                             HCR Voyager Card Program Concerns......................................................7
                                                             Fuel Management Options..........................................................................8
                                                               Fuel Price Indexing Model........................................................................9
                                                               Management Actions..............................................................................10
                                                            Recommendations...................................................................................... 11
Findings




                                                             Management’s Comments........................................................................ 11
                                                             Evaluation of Management’s Comments.................................................. 11
                                                            Appendices..................................................................................................12
                                                             Appendix A: Additional Information...........................................................13
                                                               Background ...........................................................................................13
Recommendations




                                                               Objective, Scope, and Methodology.......................................................14
                                                               Prior Audit Coverage..............................................................................15
                                                               Prior Investigative Activity.......................................................................16
                                                             Appendix B: Fuel Options Best Practices.................................................17
                                                             Appendix C: Management’s Comments...................................................18
                                                            Contact Information.....................................................................................19
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                   Print                         4
Highlights
                    Findings                                Introduction
                                                            This report summarizes the results of our prior review of the Highway Contract Route (HCR) Voyager Card Program and provides
                                                            the Postal Service with options for a more effective fuel management program (Project Number 14XG024NO000). This report
                                                            is the final in a series that responds to a request from the postmaster general to review the HCR Voyager Card Program. Our
                                                            objective was to assess the HCR Voyager Card Program (summarizing our prior work in this area) and identify viable fuel
                                                            management program alternatives. See Appendix A for additional information about this audit.

                       Since FY 2011, we found that         Since 2005, the Postal Service has been providing HCR contractors with Voyager fleet transaction cards to purchase fuel for
Table of Contents




                                                            HCRs. The Postal Service spent $5.1 billion on fuel purchases of 1.6 billion gallons for the HCR Voyager Card Program from its
                          the Postal Service did not
                                                            start in fiscal year (FY) 2005 through FY 2013. Under the HCR Voyager Card Program, contractors can obtain fuel from retail
                     establish adequate control over        locations, preferred fuel networks, and supplier-owned bulk fuel sites. HCRs contractors travelled over 1.5 billion miles in FY 2013
                                                            and used over 231 million gallons of fuel. The Postal Service spent more than $897 million on fuel for its HCRs, which includes fuel
                     the HCR Voyager Card Program           purchases of over $663 million using HCR Voyager cards. The U.S. Postal Service Office of Inspector General (OIG) previously
                                                            identified adverse findings and impacts of over $489 million related to the HCR Voyager Card Program.
                     and safeguard the cards against
                           fraud, waste, and abuse;         Our research has shown that most other procurers of transportation services either share responsibility for fuel to incentivize
                                                            economies or assign responsibility to transportation providers. They also establish a mechanism to accommodate price
                       establish an infrastructure to       adjustments based on fuel price fluctuations. The Postal Service pays for all the fuel its HCR contractors use and there is no
                                                            incentive for contractors to conserve fuel. This program consists of over 400 contractors and more than 4,000 contracts using over
                      manage the program; and take
                                                            12,000 active Voyager cards. This makes the program complex for the Postal Service and vulnerable to fraud, waste, and abuse.
Findings




                         advantage of technological
                                                            Conclusion
                     best practices to increase miles
                                                            The HCR Voyager Card Program is not effective and the Postal Service should consider other options. Specifically, the work we
                               per gallon achieved.         have done since FY 2011 found the Postal Service did not:

                                                            ■■ Establish adequate controls over the program and safeguard the cards against fraud, waste, and abuse.
Recommendations




                                                            ■■ Establish an infrastructure to manage the program including systems and resources to monitor activities.

                                                            ■■ Take advantage of technological best practices to increase miles per gallon achieved.
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                       Print                                  5
Highlights                                                  Moreover, we have identified inherent program weaknesses including a lack of incentives for contractors to obtain the cheapest
                                                            fuel, maximize their miles per gallon (MPG) efficiency, and ensure fuel purchases are for Postal Service purposes only. Since
                                                            2011, we have reported on a pattern of diminished program controls and management recognized that they were unable to
                                                            enforce pooling1 policies. Our initial investigative work from FY 2006 to FY 2013 identified 63 cases of significant program fraud
                                                            and unethical conduct by companies and individuals. Our investigation continues, but it is has become increasingly difficult given
                                                            the lack of adequate controls, processes, and practices associated with the HCR Voyager Card Program.


                             Our investigative work         The Postal Service has also incurred more in program costs than it expected to save. This is contrary to the Postal Service’s claim
                                                            that the program saves $50 million a year ($17 million from unused gallons and $33 million from discounts and rebates). Based
Table of Contents




                           has identified significant       on our prior work, beginning in FY 2011, we questioned about $489 million in expenditures associated with this program due to
                                                            significant control weaknesses. Moreover, we estimate that the Postal Service has incurred and will continue to incur about
                             program fraud by both          $10.7 million annually in additional costs because of these control weaknesses.
                         companies and individuals.
                                                            The HCR Voyager Card Program is not manageable given the level of risk and the significant resources needed to provide
                                                            enhancements and critical oversight. Based on industry best practices, one viable alternative is a variation of a fuel price-indexing
                                                            model. Indexing includes setting reasonable MPG and base price per gallon at contract inception and automatically adjusting the
                                                            fuel price periodically. Compared with the HCR Voyager Card Program, this option requires less administrative oversight, provides
                                                            increased control over contract payments (reducing the risk of fuel overpayments), incentivizes contractors to reduce fuel use, and
                                                            improves MPG efficiency.
Findings




                                                            The Postal Service has taken three significant actions to address issues related to the program. In FY 2014, it initiated a
                                                            comprehensive study of HCR contracting to identify opportunities for innovative cost-saving strategies, which included integrating
                                                            fuel types, contract types, business models, and technology platforms. This study is ongoing; no results have been announced
                                                            and it has not yet led to any decisions. In addition, the Postal Service has conducted an internal review of its pooling policy and
                                                            determined it could not collect overages because of its own non-compliance with the policy. Finally, the Postal Service took
                                                            corrective action on OIG-identified employee misconduct associated with administering and overseeing HCR contracts and the
                                                            HCR Voyager Card Program.
Recommendations
Appendices




                                                            1	   Pooling is the process that allows contractors with multiple contracts that use the same vehicles to use the collective contract fuel allocation as the basis against which
                                                                 the collective gallon usage is measured.
                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                                                        Print                                                  6
Highlights                                                  HCR Voyager Card Program Concerns
                                                            The HCR Voyager Card Program was not effective because the Postal Service did not:

                                                            ■■ Conduct a comprehensive cost-benefit analysis before implementing the program. Rather, it elected to shift its administrative
                                                               responsibilities and risks by making HCR contractors accountable for all unauthorized charges. Also, to justify the program, the
                                                               Postal Service routinely overstated its benefits and ignored its risks;

                                                            ■■ Establish adequate controls over the program, including personal identification number (PIN) management,2 pooling,3
Table of Contents




                                                               and reconciliation;4

                                                            ■■ Establish an adequate infrastructure to manage the program, such as systems that provide accurate and timely information and
                                                               sufficient resources to monitor activities;

                                                            ■■ Ensure the cognizant program official provided adequate supervision and oversight over this complex program; and

                                                            ■■ Commit sufficient resources to manage the program.

                                                            Further, the fuel management policy for the HCR Voyager Card Program is ineffective and complicated. Specifically, the annual
                                                            Fuel Management Program (FMP) policy has been relaxed through various changes designed to ease contractors’ administrative
                                                            burdens. As a result, there are conflicting versions of the FMP. This places the Postal Service and contractors at risk since one
Findings




                                                            contractor could have up to four different FMP policy documents for its HCRs depending on where the contracts are in the 4-year
                                                            contract cycle. For example, the Postal Service has changed the pooling policy in the FMP over the years, weakening the pooling
                                                            requirements. This practice makes supplier accountability difficult and increases the Postal Service’s risk of incurring losses from
                                                            fraud or inefficient fuel management.

                                                            The Postal Service has also incurred more in program costs than it expected to save. This is contrary to the Postal Service’s claim
                                                            that the program saves $50 million a year ($17 million from unused gallons and $33 million from discounts and rebates). Based
Recommendations




                                                            on our prior work, beginning in FY 2011, we questioned about $489 million in expenditures associated with this program due to
                                                            significant control weaknesses. Moreover, we estimate that the Postal Service has incurred and will continue to incur about
                                                            $10.7 million annually in additional costs because of these control weaknesses.




                                                            2	   At the time of fueling, the contractor should enter a PIN number for the respective contract to use the Voyager card. Therefore, any vehicle that has been identified by the
                                                                 contractor can use fuel from any route the contractor operates. Effective PIN management ensures proper allocation and tracking of fuel gallons purchased to the correct
Appendices




                                                                 contracted routes.
                                                            3	   The process that allows contractors with multiple contracts that use the same vehicles to use the collective contract fuel allocation as the basis against which the
                                                                 collective gallon usage is measured. Under pooling guidelines, contractors with multiple contracts may request written approval from the Postal Service to pool contractual
                                                                 allotted gallons against actual gallons purchased for the purpose of performing annual reconciliations and determining excess gallons and payments. Pooling is part of the
                                                                 overall reconciliation process.
                                                            4	   The reconciliation process takes place after pooling and involves the determination of whether the “net” pool gallons are in excess of the allowed pool gallons. When net
                                                                 pool gallons are excessive, the Postal Service is required to document use and initiate action to recover costs associated with the excess gallons.
                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                                                      Print                                                7
Highlights                                                  Fuel Management Options
                                                            Our benchmarking and best practices research indicated that organizations typically choose among some variation or
                                                            combination of the following fuel procurement methods for their contracted fleets, depending on operational parameters and
                                                            other considerations such as route and fleet type. We summarize the advantages and disadvantages of three basic fuel program
                                                            options (see Table 1). See Appendix B for additional information about fuel management program options.

                                                            Table 1. Fuel Program Options – Advantages and Disadvantages
Table of Contents




                                                            Type of Fuel Program Advantages                                               Disadvantages
                                                                                                                                          •	Regulations, environmental risks
                                                                                               •	Lowest cost possible versus retail
                                                            Bulk Fuel Purchasing                                                          •	Limited accessibility
                                                                                               •	Fuel cards track use
                                                                                                                                          •	Requires space for tanks/traffic
                                                                                               •	Price and quantity are negotiated upfront •	Less data/visibility
                                                                                               •	Less management oversight required        •	Pay for unused gallons
                                                            Fuel Price Indexing                •	Leverages supplier core competencies     •	Lose control of rebates and discounts
                                                                                               •	Incentivizes energy conservation and a   •	Requires establishment of an MPG standard
                                                                                                 reduced carbon footprint
                                                                                                                                          •	Needs significantly more oversight, including monthly
Findings




                                                                                                                                            reconciliations
                                                                                                                                          •	Does not incentivize energy conservation or use of
                                                                                                                                            alternative fuels
                                                                                               •	Data ownership/visibility
                                                            Fuel Cards                                                                    •	Higher risk of fraud and abuse
                                                                                               •	Control over rebates/discounts
                                                                                                                                          •	Requires establishment of an MPG standard
                                                                                                                                          •	Fuel purchases can exceed annual authorized gallons
                                                                                                                                            and excess expenses are typically not recovered until
Recommendations




                                                                                                                                            reconciliations are performed after the fuel year
                                                            Source: OIG based on analysis and contracted expert research.



                                                            Our research further concluded that best-in-class organizations optimize these programs by using robust internal controls and
                                                            technology. In this way organizations are able to track, monitor, and measure fuel use with the goal of identifying instances of fraud
                                                            or opportunities to increase fuel efficiency and reduce fuel costs. Best-in-class organizations customize their fuel management
                                                            programs to align with organizational goals, industry standards, operational considerations, and workforce makeup, among other
                                                            key considerations. Further, leading organizations have implemented technologies, strict processes, and multi-layered human
                                                            capital structures to effectively manage their fuel procurement programs and control fuel-related costs.
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                                    Print                           8
Highlights                                                  Fuel Price Indexing Model
                                                            Based on our review of industry best practices, the Postal Service should consider a variation of the fuel price-indexing model,
                                                            which would require less oversight and reduce risks. However, this type of program would require best-in-class contracting
                                                            practices, including:

                                                            ■■ Ensuring the MPG, best fuel price-per-gallon and total miles for each contract are properly established at contract negotiation
                                                               and verifying up-front fuel costs and adjusting costs for future price increases if differences exist between the authorized and
                                                               paid price per gallon.
Table of Contents




                                                            ■■ Requiring large contractors with fuel cards and fuel-tracking technologies and processes to share transaction reports and data
                                                               with customers so they can verify up-front costs and make adjustments as necessary.

                                                            ■■ Working with contractors to share discounts and rebates they receive on fuel, which will incentivize suppliers to monitor the fuel
                                                               gallons used and the price paid for fuel.

                                                            ■■ Incentivizing contractors to reduce MPG and their carbon footprint.

                                                            The Postal Service would automatically adjust the price-per-gallon based on a fuel price index and automatically pay contractors
                                                            each month for fuel, based on the authorized gallons established at contract inception, accounting for any adjustments due to
                                                            added services.
Findings




                                                            The indexing model would give the Postal Service increased transparency over individual contract fuel costs, allow it to avoid
                                                            fuel overpayments, and reduce the administrative burden of paying for fuel above annual authorized gallons and the risk of not
                                                            collecting overpayments at the end of each fuel year (pay and chase).

                                                            While the fuel price-indexing program has several advantages and is superior to the HCR Voyager Card Program, there are
                                                            associated risks such as having less control over transaction data, paying for unused gallons, having less control over rebates and
Recommendations




                                                            discounts, and requiring the establishment of MPG standards.
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                       Print                                      9
Highlights                                                  Management Actions
                                                            Management initiated three primary actions related to the HCR Voyager Card Program: a comprehensive study of the HCR
                                                            transportation model and transportation procurement best practices; an internal review of pooling practices; and corrective
                                                            actions relating to OIG-identified employee misconduct associated with the administration and oversight of HCR contracts and
                                                            the HCR Voyager Card Program. Specifically:

                                                            ■■ In FY 2014, the Postal Service initiated a comprehensive study of its HCR contracting model to identify opportunities for
                                                               innovative cost-saving strategies, which included integrating fuel types, contract types, business models, and technology
Table of Contents




                                                               platforms. This study is ongoing; no results have been announced and it has not yet led to any decisions.

                                                            ■■ In late FY 2013, the Postal Service acknowledged that aggregate pooling did not comply with FMP policy and determined
                                                               overages could not be collected. In early FY 2014, the Postal Service conducted a comprehensive review of its pooling policy
                                                               and practices and found it had not complied with the established pooling policies. Further, it determined that retroactive
                                                               application and enforcement of its pooling policy would pose significant financial risks.

                                                            ■■ Based on OIG work, Postal Service management took corrective disciplinary action against Postal Service officials and staff
                                                               for misconduct associated with their administration and oversight of HCR contracts and the HCR Voyager Card Program.
                                                               Management proposed and implemented oral reprimands, letters of warning, and position downgrades. Several managers and
                                                               staff members elected to retire or transfer to other departments because of the disciplinary actions (see Appendix A for details).
Findings
Recommendations
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                        Print                                 10
Highlights
                    Recommendations                         We recommend the vice president, Supply Management, in coordination with the vice president, Network Operations:

                                                            1.	 Consider alternatives to the Highway Contract Route Voyager Card Program.

                                                            2.	 Consider fuel management best practices as appropriate to obtain the best value for the U.S. Postal Service.

                                                            Management’s Comments
                       We recommend management              Management generally agreed with the findings, recommendations, and monetary impacts. Below is a summary of management’s
Table of Contents




                                                            responses to our recommendations.
                            consider alternatives to
                     the HCR Voyager Card Program           In response to recommendation 1, management agreed to consider alternatives to the HCR Voyager Card Program and is
                                                            evaluating some options. Management plans to implement the recommendation by March 31, 2015.
                     and consider fuel management
                                                            In response to recommendation 2, management agreed to consider fuel management best practices for best value. Management
                    best practices to obtain the best
                                                            plans to implement the recommendation by March 31, 2015.
                        value for the Postal Service.
                                                            See Appendix C for management’s comments, in their entirety.

                                                            Evaluation of Management’s Comments
Findings




                                                            The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
                                                            identified in the report.

                                                            The OIG considers the recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                            OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                            Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                     Print                                   11
Highlights
                    Appendices

                                                            Appendix A: Additional Information...........................................................13
                                                             Background ...........................................................................................13
                                                             Objective, Scope, and Methodology.......................................................14
                          Click on the appendix title        Prior Audit Coverage..............................................................................15
Table of Contents




                                                             Prior Investigative Activity.......................................................................16
                          to the right to navigate to
                                                            Appendix B: Fuel Options Best Practices.................................................17
                               the section content.         Appendix C: Management’s Comments...................................................18
Findings
Recommendations
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                              Print                     12
Highlights          Appendix A:                             Background
                    Additional Information                  Under the U.S. General Services Administration’s (GSA) SmartPay®2 Card Program federal agencies enter into agreements with
                                                            approved financial institutions to obtain purchase, travel, and fleet transaction cards. The Postal Service has been using fleet
                                                            transaction cards from U.S. Bank Voyager Fleet Systems, Inc. to purchase fuel for its owned vehicle fleet since the year 2000.
                                                            This is known as the HCR Voyager Card Program.

                                                            In 2005, the Postal Service expanded its HCR Voyager Card Program under the federal government’s SmartPay2 Card Program
                                                            to include HCR contractors, known as the HCR Voyager Card Program. The Postal Service’s primary mode of transportation
Table of Contents




                                                            in its operations is contracted highway transportation; referred to as HCRs. Fuel management is a major component of the
                                                            Postal Service’s transportation network.

                                                            The Postal Service presently uses several practices to acquire fuel with HCR suppliers:

                                                            ■■ The HCR Voyager Card Program, which uses fuel cards issued under the GSA’s SmartPay 2 Program. This program is
                                                               used for about 21 percent of all HCRs and accounts for about 74 percent of HCR fuel expenditures. The HCR Voyager Card
                                                               Program enables contractors to purchase fuel directly from retail locations and some bulk fuel sites. The Postal Service makes
                                                               payments directly to U.S. Bank’s Voyager Fleet Services Program for contractor fuel charges. The Postal Service intended
                                                               to better manage the fuel component of HCRs by issuing Voyager cards and only paying for fuel that is used, obtaining more
                                                               accurate fuel acquisition and consumption data, and reducing fuel costs by leveraging volume purchasing.
Findings




                                                            ■■ The Bulk Fuel Program provides fuel from storage tanks owned and operated by the largest highway contractors. Under
                                                               this arrangement, HCR contractors that have bulk fuel storage tanks can receive fuel from fuel sources designated by the
                                                               Postal Service. The HCR contractors pay the fuel providers directly and the Postal Service compensates them for only the
                                                               fuel they use for their Postal Service contracts.

                                                            ■■ The Fuel Price Indexing Program (Indexing), which 79 percent of HCRs use but which accounts for only 26 percent of HCR
                                                               fuel expenditures. This method is usually used for smaller routes, box delivery routes, and HCRs that cannot administer the
Recommendations




                                                               HCR Voyager Card Program. The Postal Service pays a set monthly fuel amount based on the annual authorized fuel gallons
                                                               for routes that use Indexing. Additionally, the amount reimbursed per gallon is indexed to published regional prices and
                                                               adjusted when prices fluctuate by $.05 or more.

                                                            Over the past 2 years, the Postal Service has tried to reduce the number of HCR suppliers on the HCR Voyager Card Program
                                                            and move them to automated indexing. However, even with the shift of hundreds of contractors and thousands of contracts from
                                                            the HCR Voyager Card Program to indexing, over 400 suppliers and more than 4,000 contracts are still using over 12,000 active
                                                            Voyager cards.

                                                            HCR contractors are authorized an annual fuel allowance limit for fulfilling Postal Service HCR contracts. They should not use
                                                            fuel transaction cards to purchase fuel in excess of the allowed quantities or to purchase unauthorized grades of fuel. The
Appendices




                                                            HCR Voyager Card Program reimburses only for fuel gallons actually purchased (up to the contract limit) and stipulates that fuel
                                                            allotments are for use in the performance of Postal Service contracts only. The main control the Postal Service has used in the
                                                            HCR Voyager Card Program is the end-of-the-year reconciliation of authorized gallons to paid gallons.


                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                      Print                                    13
Highlights                                                  Objective, Scope, and Methodology
                                                            This report is the final in a series on the HCR Voyager Card Program and summarizes the results of our prior work. Our objective
                                                            was to assess the HCR Voyager Card Program and identify alternatives to it. To address our objective, we identified leading fuel
                                                            management options for contracted highway transportation. Specifically, we:

                                                            ■■ Conducted secondary research on fuel management programs for contracted transportation among transportation
                                                               organizations to determine the best companies to study and identified about 20 that are noted for excellence in transportation.
Table of Contents




                                                            ■■ Identified six companies with best-in-class fuel management programs for contracted transportation for an in-depth study
                                                               based on comparable contracted transportation fleets, alternative fuel purchasing solutions, and cost-saving strategies.

                                                            ■■ Conducted multiple interviews with subject matter experts at leading organizations that have direct insight into the successful
                                                               execution of fuel procurement practices at their organizations, with a focus on contracted transportation.

                                                            ■■ Analyzed interview findings from all six companies to identify best practices from this research and prepared a final report.

                                                            ■■ Interviewed and followed up with headquarters staff and managers regarding the fuel management program.

                                                            ■■ Obtained and summarized documentation for the fuel management program and HCR Voyager Card Program savings,
                                                               reconciliation, policies, and planning documents. This included Supply Chain Management (SCM) savings procedures and
Findings




                                                               figures for the HCR Voyager Card Program.

                                                            ■■ Compared the existing automated fuel indexing pricing to the current monthly benchmark the Postal Service uses. We also
                                                               compared those benchmarks to the current HCR Voyager Card Program’s data. To better understand the implication of
                                                               expanding this program augmented with industry best practices, we compared the current indexing program to the
                                                               HCR Voyager Card Program. We started by comparing fuel data for both programs by contract, month, and state. We looked
                                                               at only diesel and removed water and box routes. Then we compared indexed prices on Voyager gallons to Voyager prices.
Recommendations




                                                               We considered the impact of best practices and the costs and benefits identified throughout prior reports and investigations.

                                                            ■■ Interviewed external stakeholders to obtain their views on fuel management program options.

                                                            In prior reports, we tested the reliability of the Fuel Asset Management System (FAMS), Transportation Contract Support System
                                                            (TCSS), and Enterprise Data Warehouse data. We found that the data were sufficiently reliable for the purposes of those audits.

                                                            For this advisory, we relied on prior testing and supplemented our assessment of the reliability of TCSS and FAMS data by testing
                                                            column totals with other data summaries to ensure the data captured was complete and reasonable. We calculated diesel fuel
                                                            costs using nationally published average retail prices from the U.S. Energy Information Administration.
Appendices




                                                            We conducted this review from March 2014 through September 2014, in accordance with the Council of the Inspectors General
                                                            on Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
                                                            management on September 3, 2014, and included their comments where appropriate.


                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                        Print                                    14
Highlights                                                  Prior Audit Coverage
                                                            The OIG issued five reports addressing the HCR Voyager Card Program. The reports covered establishing MPG and weak
                                                            controls over the HCR fuel card, including changes to the policy documents and identification of overages. In our prior work, we
                                                            reported monetary impacts of about $489 million due to control weaknesses in the program.

                                                                                                                                                                   Monetary Impact
                                                            Report Title                                   Report Number              Final Report Date              (in millions)
                                                            Voyager Card Program for Highway
Table of Contents




                                                            Contract Routes – Pooling Policy                NO-MA-14-006                   9/29/2014                      $85
                                                            Concerns and Related Overpayments
                                                            Report Results: We found the Postal Service has not effectively implemented and managed fuel pooling for HCR contractors
                                                            under the HCR Voyager Card Program. It has mistakenly allowed all HCR contractors with multiple HCRs to pool their
                                                            authorized fuel gallons (called aggregate pooling) regardless of location or whether the same vehicles are used on
                                                            multiple routes.
                                                            Highway Contract Routes – Miles per
                                                                                                            NO-AR-14-008                   5/27/2014                    $286.7
                                                            Gallon Assessment
                                                            Report Results: We found the Postal Service’s average MPG for HCRs was below industry averages. Most HCR contracts
                                                            included MPG allowances that were below industry averages by vehicle type. Further, the Postal Service could increase MPG
                                                            for HCRs by adopting best practices in line with industry leaders. Management agreed with our findings and recommendations,
                                                            but did not agree with our monetary impact calculations.
Findings




                                                            Voyager Card Program for Highway
                                                            Contract Routes – Unidentified and              NO-MA-14-001                  10/30/2013                      $9.9
                                                            Unrecovered Fuel Overpayments
                                                            Report Results: We found that fuel overpayments to HCR contractors were not properly identified and recovered by the
                                                            Postal Service for fuel year 2009-2010. Management agreed with our findings and recommendations, but did not agree with
                                                            the associated monetary impact.
                                                            High-Risk Voyager Policy and Procedure
Recommendations




                                                                                                            NO-MA-13-003                   3/22/2013                     None
                                                            Changes for Highway Contract Routes
                                                            Report Results: We identified recent and proposed policy changes that could result in increased risk of fraud, waste, and
                                                            abuse. Specifically, these changes include: 1) The 2012 change that allowed the expansion of pooling of gallons across the
                                                            contractors’ HCRs without regard to postal operational needs or benefit to the Postal Service. 2) The 2013 proposed policy
                                                            change that allows fuel usage for non-postal services. Management generally agreed with our findings and recommendations.
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                       Print                                   15
Highlights                                                  Prior Investigative Activity
                                                            The OIG has completed 63 investigations related to the HCR Voyager Card Program over the last 9 years. Additionally, the
                                                            Special Inquiries Division (SID) investigated allegations of misconduct among employees in the Postal Service’s Transportation
                                                            Portfolio, which is a part of Supply Management. The SID investigations produced nine Reports of Investigation (ROI) that were
                                                            forwarded to Postal Service management for appropriate action. Resulting proposed and imposed discipline included an oral
                                                            reprimand, letters of warning, and downgrades for:

                                                            ■■ Unethical conduct for disclosing non-public information.
Table of Contents




                                                            ■■ Lack of candor with regard to the investigation of an HCR contractor.

                                                            ■■ Repeated use of poor judgment related to ensuring the Category Management Center adhered to FMP policy, FMP policy
                                                               development/review, and contract administration of HCR contractors.

                                                            ■■ Violation of contracting policies and ethics rules in connection with a contract involving a former Postal Service employee.

                                                            ■■ Failure to act promptly with regard to OIG reports of fraud regarding HCR contractors.
Findings
Recommendations
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                        Print                                 16
Highlights          Appendix B:                             Overview of Common Fuel Purchasing and Management Methods and Tools
                    Fuel Options Best Practices
                                                             Fuel Management
                                                             Methods and Tools                                       Description                                           Usage Overview
                                                                                                                                                         •	Fuel cards reduce companies’ administrative
                                                                                                •	Fuel cards allow companies to measure and                burden and allow drivers to refuel at various
                                                                                                  manage fuel consumption and simultaneously               locations (depending on type of fuel card)
                                                                                                  eliminate administrative burdens
                                                                                                                                                         •	Fuel cards capitalize on discounted pricing and
                                                                                                •	“Closed loop” fuel cards act as both a payment           rebates, especially “open loop” fuel cards
Table of Contents




                                                                                                  method to contractors and a tracking system to
                                                                                                  issuers                                                •	Provide organizations with data, allowing them to
                                                                                                                                                           analyze and optimize fuel management program
                                                                                                  ––Restricted to specific purchase,
                                                                                   Fuel Cards                                                              ––Level 1 Data – provides purchases, merchant
                                                                                                    predominantly fuel
                                                                                                                                                             name, and total purchase amount data
                                                                                                •	“Open loop” fuel cards allow fleet managers to
                                                                                                  maximize issuer rebates by consolidating multiple        ––Level 2 Data – provides more detail about
                                                                                                  spend types onto a single card                             transactions including merchant type, fuel grade,
                                                                                                                                                             sales tax, etc.
                                                                                                  ––Used to purchase fuel, maintenance, parts
                                                                                                    and services, and crew travel to capitalize on         ––Level 3 Data – provides more detailed
                                                                                                                                                             transaction activity on who purchased what,
                                                              Purchasing Methods
                                                                                                    discounted prices
                                                                                                                                                             when, and how
                                                                                                •	Fleet drivers receive payments for authorized          •	Fuel price indexing eliminates a lot of the
                                                                                                  gallons, regardless of whether gallons are               administrative burdens and potential risk of
                                                                                                  purchased or not
Findings




                                                                                                                                                           fraudulent activity associated with other fuel
                                                                                                  ––Organizations such as Company B and                    procurement methods
                                                                                                    Company D constantly adjust fuel payments            •	Organizations are able to pay contracted drivers
                                                                                   Fuel Price       based on fluctuations in the price per gallon          to get from point A to point B for an agreed upon
                                                                                   Indexing     •	Fuel price indexing is a predictive fuel-cost            amount of money, which includes fuel
                                                                                                  measurement approach based on the Department         •	Contracted fleet drivers are set on a specific
                                                                                                  of Energy or other organizations’ fuel indices         route to accurately predict the necessary fuel
                                                                                                  ––Used during contract negotiations to predict costs payments, eliminating the need for invoices and
                                                                                                                                                         reimbursement payments for unpredicted fuel
Recommendations




                                                                                                    based on vehicle MPG, total distance traveled,
                                                                                                    and fuel price                                       usage

                                                                                                •	Organizations with set fueling centers, such as
                                                                                                  in-house distribution centers, purchase fuel in bulk   •	Bulk purchasing allows organizations to reduce
                                                                                                  to capitalize on discounted prices                       fuel costs on the front end, reducing the threat of
                                                                                   Bulk                                                                    fraud associated with drivers independently fueling
                                                                                                •	Bulk purchasing allows organizations to consolidate
                                                                                   Purchasing     fuel purchases, use direct billing, capitalize on    •	Organizations with set fueling centers, such as city
                                                                                                  reverse auction fuel purchases, lock in fuel prices,   municipal fleets, often capitalize on purchasing fuel
                                                                                                  and/or award the lowest bidder to reduce fuel          in bulk to limit initial fuel costs
                                                                                                  consumption costs
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                                                      Print                                    17
Highlights          Appendix C:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                            Print   18
Highlights
Table of Contents
Findings




                                                               Contact us via our Hotline and FOIA forms, follow us on social
                                                            networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                   or abuse. Stay informed.
Recommendations




                                                                                  1735 North Lynn Street
                                                                                 Arlington, VA 22209-2020
                                                                                       (703) 248-2100
Appendices




                    Voyager Card Program – Capping Report
                    Report Number NO-MA-14-007
                                                                                                                                     Print   19
